40

APPENDIX A
FENYANG STEWART, Plaintiff-Appellant,
v.
WILBUR L. ROSS, JR., Hon., in his official capacity as
Secretary, U.S. Department of Commerce; ANDREI IANCU, in
his official capacity as Director, United States Patent &
Trademark Office, Defendants-Appellees.
No. 20-1514.
United States Court of Appeals, Fourth Circuit.
Submitted: January 4, 2021.
Decided: January 21, 202 L
Appeal from the United States District Court for the Eastern District of
Virginia, at Alexandria. Leonie M. Brinkema, District Judge.
(1:18-cv-01369-LMB-TCB; 1:16-cv-00213-LMB-JFA)
Fenyang Ajamu Stewart, Appellant Pro Se.
Catherine M. Yang, Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellees.
Before GREGORY, Chief Judge, MOTZ, and WYNN, Circuit Judges.
Affirmed by unpublished per curiam opinion.
UNPUBLISHED
Unpublished opinions are not binding: precedent in this circuit.
PER CURIAM:
Fenyang Stewart appeals the district court's order (a) dismissing in part,
pursuant to Fed. R. Civ. P. 12(b)(6), the amended consolidated complaint
in Stewart's consolidated employment actions, which related to the U.S.
Patent and Trademark Office terminating Stewart's employment in 2016;
and (b) granting Defendants partial summary judgment on one of the
claims asserted in the amended consolidated complaint. Upon review of

41

the parties' arguments in conjunction with the record on appeal and the
relevant authorities, we discern no reversible error in the district court's
thorough and well-reasoned analysis. Accordingly we affirm for the
reasons stated by the district court. Stewart v. Ross, Nos.
1:18-cv-01369-LMB-TCB; 1:16-cv-00213-LMB-JFA (E.D. Va. Apr. 17,
2020). We deny Stewart’s motion for leave to supplement his informal
brief and for the appointment of counsel. We dispense with oral argument
because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional
process.
AFFIRMED.

42

APPENDIX B
FENYANG STEWART, Plaintiff,
v.
WILBUR L. ROSS, JR., Secretary, U.S. Department of
Commerce, et al. Defendants.
Nos. l:18-cv-I369 (LMB/TCB), l:16-cv-213 (LMB/JFA)
United States District Court, E.D. Virginia,
Alexandria Division.
April 17, 2020.
MEMORANDUM OPINION
LEONIE M. BRINKEMA, District Judge.
In these consolidated civil actions brought against defendants Wilbur Ross
and Andre Iancu (collectively, "defendants"), in their respective capacities
as the Secretary of the U.S. Department of Commerce ("USDOC") and the
Director of the U.S. Patent and Trademark Office ("USPTO"), plaintiff pro
se Fenyang Stewart ("plaintiff or "Stewart") challenges multiple mixed
case decisions of the Merit Systems Protection Board ("MSPB") and the
Equal Employment Opportunity Commission ("EEOC"), including the
affirmance of his removal from employment with the USPTO.111 Before the
Court are defendants' Motion to Dismiss in Part and Motion for Summary
Judgment in Part, as well as plaintiffs Cross-Motion for Summary
Judgment. For the reasons that follow, defendants' Motion to Dismiss in
Part and Motion for Summary Judgment will be granted, and plaintiffs
Cross-Motion for Summary Judgment will be denied.
I. BACKGROUND
A. Factual Background121
Plaintiff was employed by the USPTO as a patent examiner from
September 2013 to September 2016. Amended Consolidated Complaint
("Complaint") [Dkt. 53][31 Iff 16, 47. Over the course of his employment,
plaintiff submitted numerous requests for accommodations under the
Rehabilitation Act to the USPTO’s Office of Equal Employment

43

Opportunity and Diversity ("OEEOD"). See, e.g. id. Iff 50, 64. Virtually all
of the issues in these consolidated actions concern plaintiffs
accommodation requests. Primarily, the issues concern plaintiffs repeated
requests (1) to have all meetings with his supervisor occur in the
afternoon due to a pinched nerve in his back, the medication for which
"caused loss of concentration" in the morning, and (2) to be transferred to
work under a different supervisor due to post- and continuous- traumatic
stress disorder "stemming from physical abuse in [his] childhood," which
was "triggered" and "exacerbated" by interactions with his
then-supervisor Ken Lo. See, e.g., id. ff 72-74, 78, 87, 98, 104, 110,
117-18, 121, 123, 131, 138, 141, 151, 154, 161, 163, 170, 179, 181, 190, 199,
202, 255, 262, 266, 269.
On July 30, 2014, plaintiff submitted a request for seven accommodations
based on his diagnosis of a pinched nerve in his back, "which prevented
him from sitting for long periods of time and, at certain times, standing
for long periods of time," and the medication for which "caused loss of
concentration" in the morning. See, e.g. id. f 98. Specifically plaintiff
requested: (1) "[t]o not be required to come into work at a certain time;" (2)
"[t]o not be required to report to his supervisor his upcoming work
schedule for the week/biweek;" (3) "[a]n ergonomic chair;" (4) "[a]n
ergonomic keyboard," (5) "[t]o have meetings, interviews and mentoring
sessions occur in the afternoon, after 12:00 pm;" (6) "[a] standing,
height-adjustable desk;" and (7) "[a] foot stool." [MSPB Record, Dkt. 16-7,
at 151-53].541 On September 19, 2014, the USPTO issued a two-page
written decision regarding plaintiffs requests, which was broken into five
numbered parts as follows. Id.
In parts 1 and 2, respectively, the decision listed plaintiffs name and his
seven requested accommodations. Id. In part 3, entitled "Accommodation
Granted," the decision stated:
[Plaintiff] is granted an ergonomic keyboard, a standing desk, and a
footstool. [Plaintiff] should contact the USPTO helpdesk to arrange for his
request for an ergonomic keyboard. Given that {plaintiff] has [already]
received an ergonomic chair, [plaintiffs] request for an ergonomic chair is
moot.
With respect to request number 1, [plaintiff] is currently on an IFP work
schedule,which should allow him sufficient flexibility in his schedule to
work around any difficulties he encounters with adhering to his typical
work schedule.
Consistent with the IFP program, [plaintiff] must confer with his
supervisor to establish a work schedule that allows him to maximize
interaction, training and mentoring with his supervisor. [Plaintiff] must

44

notify his supervisor as soon as possible when his condition requires him
to begin or end work at times that differ from his typical work schedule,
as established by him and his supervisor.
[Plaintiffs] supervisor and mentors will, when possible, schedule meetings
designed specifically for {plaintiff] for times after 12:00 p.m.
Id. (emphasis added). In parts 4 and 5, plaintiffs requests to have
meetings, interviews, and mentoring sessions occur in the afternoon and
not to be required to report his upcoming work schedule were either
"denied" or "partially denied" because they would cause the USPTO
"undue hardship." Id. Specifically, part 5 explained:
[Plaintiffs] request to not report his upcoming work schedule to his
supervisor for the week/bi-week is denied. An employer is not required to
provide an accommodation that would fundamentally alter the nature or
operation of the business and cause the Agency undue hardship. In this
instance, [plaintiffs] request would be difficult for his supervisor and the
Agency to oversee and administer and is also not supported by any
medical documentation suggesting that not informing his supervisor of his
planned typical work schedule for the week or bi-week would alleviate any
difficulties caused by his condition. Further, [plaintiff] is currently on an
IFP schedule, which allows him to adjust his work schedule to meet his
needs, as long as he notifies his supervisor when he deviates from his
fixed work schedule. The Agency believes that this accommodation is
effective in accommodating [plaintiff's] medical condition. An Agency is
not required to provide the specific accommodation requested, and may
choose among reasonable accommodations as long as the accommodation
is effective.
With respect to [plaintiffs] request to have interviews occur in the
afternoon, [plaintiff] has the ability to schedule interviews in the
afternoon on his own without needing a reasonable accommodation. As a
result, [plaintiffs] request to have interviews in the afternoon can be
handled outside of the reasonable accommodation process. [Plaintiffs]
supervisors and mentors will, when possible, schedule their meetings with
him after 12:00 p.m. However, it would be unreasonable to require the
Agency to avoid meeting times before noon when attempting to schedule
meetings that that [sic] require coordinating the schedules of multiple
attendees, so the Agency cannot fully excuse [plaintiff] from being
required to attend meetings before noon.
Id. (emphasis added).
On October 7, 2014, Shirlena Morgan, an employee of the USPTO’s
financial management office responsible for coordinating certain

45

accommodations, emailed plaintiff regarding his requests for a standing
desk and footstool. [Case No. 16-cv-213, Dkt. n-13].l<!| Morgan asked that
plaintiff ”[p]lease give [her] a call at [his] convenience to coordinate [his]
accommodations]." Id. Plaintiff did not respond to Morgan’s email or
otherwise make any effort to coordinate implementation of his standing
desk and footstool requests over the next six months. Compl. % 198.
Despite plaintiffs failure to respond, he subsequently received a standing
desk on March 19, 2015, and received a footstool on June 2, 2015. Id.
51-52.
On May 30, 2015, plaintiffs supervisor Robert Fennema informed plaintiff
that he was being investigated for impermissibly working hours outside of
the IFP work schedule. Id. f 58. Plaintiff admitted to working all of the
hours at issue, but claimed he had been granted an accommodation that
allowed him to work hours outside of the IFP work schedule. Id. Plaintiffs
claim was not corroborated, and on June 4, 2015, following an
investigation into the matter, Fennema issued plaintiff a letter of
reprimand for impermissibly working hours outside of the IFP work
schedule. Id. H 60. As relevant here, the letter explained that plaintiff
confirmed to Fennema that he was told at an IFP training session on
February 27, 2015 that he could not work hours outside of the IFP work
schedule. [MSPB Record, Dkt. 16-1, at 250].
Plaintiff first initiated contact with the OEEOD on April 30, 2015 and
filed a formal complaint with the OEEOD on July 14, 2015. Compl. ff
11-12. In his formal complaint, plaintiff alleged at least seven instances in
which "he was discriminated against in violation of the Rehabilitation
Act." [MSPB Record, Dkt. 16-5, at 141-3]. These instances included (1)
failure to accommodate when the USPTO denied his request to work
hours outside of the IFP work schedule, (2) failure to accommodate when
the USPTO failed to implement his requests for a standing desk and
footstool until March 19, 2015 and June 2, 2015, respective^, (3)
retaliation for engaging in EEO activity when the USPTO deemed his wife
unqualified for a job vacancy, (4) retaliation for engaging in EEO activity
when the USPTO did not select his wife to fill a job vacancy, (5) disability
discrimination when Fennema issued him a letter of reprimand for
impermissibly working hours outside of the IFP work schedule, (6) hostile
work environment when the USPTO failed to accommodate him or
otherwise disregarded his accommodations, and (7) disability
discrimination when he was delayed a promotion. Id. Plaintiff amended
his formal complaint numerous times throughout his employment with
the USPTO, and in total appears to have alleged at least 37 instances in
which he was purportedly discriminated against in violation of the
Rehabilitation Act. Id.

46

On October 16, 2015, plaintiff requested that the OEEOD temporarily
transfer him to a different supervisor because Fennema was engaging in
an "alleged pattern of harassment" which plaintiff believed was "a form of
retaliation for filing a formal [complaint] [with] the [OEEOD]." [MSPB
Record, Dkt. 16-1, at 191]. The OEEOD responded that it ”ha[d] no
jurisdiction to order a temporary transfer" and had "forwarded [plaintiffs]
request to Employee Relations." Id. at 189. On October 23, 2015, plaintiff
reiterated his request "to be transferred to work under another
[supervisor]" to one of his superiors, Wendy Garber. Id. Garber responded
that plaintiff could "temporarily turn in cases" to Ken Lo, although
Fennema would "continue to be [his] supervisor" for all other matters. Id.
at 188.
Despite initially confirming to Garber that this "solution" was
"satisfactory and equitable," id., only a few weeks later, on November 17,
2015, plaintiff requested that she permanently transfer him from Lo to
Kakali Chaki, another supervisor with whom plaintiff had been working
while Lo was out of the office. Compl. f f 64, 146. Plaintiff explained that
his and Lo's "styles [did] not mesh together well at all," whereas his and
Chaki's styles "mesh[ed] very well together." Id. ^ 146. Garber responded
that "since [plaintiff] had less than a week of working with [Lo] [given the
time that Lo was out of the office], it [was] premature to consider another
transfer." Id. til 64, 148. Three days after Garber's response, on November
20, 2015, plaintiff again requested that she permanently transfer him to
Chaki, this time characterizing the request as a request for an
accommodation. [MSPB Record, Dkt. 16-5, at 333]. Garber responded that
she "[did] not decide [reasonable [accommodations," and directed plaintiff
to the website for making an accommodation request, Id. Later that day,
plaintiff submitted an accommodation request for "a permanent transfer"
to Chaki "effective immediately." [MSPB Record, Dkt. 16-2, at 34-35],
On December 7, 2015, the USPTO denied plaintiffs accommodation
request on the ground that "reassign[ment] to a different supervisor is not
considered to be a form of reasonable accommodation." Id. The decision
explained that plaintiff could always "submit a request for transfer
outside of the [accommodation] process." Id. On December 17, 2015,
plaintiff requested reconsideration of the decision, submitting
documentation that reflected a new diagnosis of post- and continuoustraumatic stress disorder, which he attributed to "physical . . . abuse in
[his] childhood," including by "his [d]octoral advisor during his Ph.D.
program in 2011-2012," as well as "abusive treatment" by Lo, including
"Lo's demeanor, tone, and over-scrutinizing method of correction" of
plaintiff's work. Compl. IjH 65-66. On February 4, 2016, the USPTO
again denied plaintiff's accommodation request on the same ground,
adding as additional explanations for the denial that Chaki worked in

47

a different unit than the unit to which plaintiff was assigned* which
meant that plaintiff examined patents of different subject matters* and
that plaintiff had never formally worked for Chaki before. Id. f f 70-72.
In the meantime, plaintiff had continued to submit his work to Lo. See,
e.g., id. f 69. On January 14, 2016, Fennema issued plaintiff a notice of
a proposed three-day suspension. Id. The notice charged plaintiff with
three specifications of improper conduct, including that he had been
rude, unprofessional, and insubordinate to Lo on multiple occasions in
December 2015 when he had failed to follow Lo's instructions about
how to interview patent applicants and had refused to discuss the
merits of patent applications in his meetings with Lo. Id. On February
23, 2015, the USPTO found the charges of improper conduct supported,
and suspended plaintiff for three days. Id. f 76.
Throughout March 2016, after plaintiff returned from his suspension,
numerous incidents occurred in which plaintiff was again alleged to
have been rude, unprofessional, and insubordinate in his dealings with
Lo. fMSPB Record, Dkt. 16-6, at 10-11]. These incidents included
instances, on March 4 and March 7, 2016, respectively, in which
plaintiff either failed to attend or refused to participate in afternoon
meetings with Lo, and three subsequent instances, on March 15,
March 22, and March 24, 2016, respectively, in which Lo scheduled
meetings with plaintiff at 10:00 a.m. Id.; see also Compl. f 81. Lo
scheduled these morning meetings only after plaintiff either failed to
attend or refused to participate in the March 4 and March 7, 2016
afternoon meetings. Compl. ff 86, 126. Plaintiff alleges that on the
dates of these morning meetings, Lo's afternoon schedule was open
such that Lo could have scheduled the meetings in the afternoon
instead. Id. f 81 Plaintiff attended the morning meetings, but claims
he had to adjust his back pain medication to be sufficiently alert for
them, and generally alleges that they triggered symptoms of his postand continuous- traumatic stress disorder. See, e.g., id. ft 78, 81, 87.
The details of these meetings, as well as several other March 2016
incidents, warrant discussion.171 On March 1, 2016, plaintiff "did not
respond to [Lo's] direction to contact him to discuss cases when [he]
arrived in the office." [MSPB Record, Dkt. 16-6, at 15]. On March 2,
2015, plaintiff again "did not respond to [Lo’s] direction to contact him
to discuss cases when [he] arrived in the office." Id. at 15-16. On March
4, 2016, plaintiff "failed to attend" a "mandatory meeting [with Lo] at
1.00 p.m." Id. at 17. Plaintiff does not dispute that he failed to attend
the meeting, but claims that he "was well within his rights ... to

48

refuse to follow an unlawful order." Id. On March 7, 2016, plaintiff
again "refused to review his cases with [Lo] during a scheduled
meeting" which took place "at 1:00 p.m." Id. at 18. During the meeting,
plaintiff "refused to discuss [his] cases [with Lo], interrupted [Lo], and
recommended that [Lo] not attempt to meet with him again." Id. at
19.t8) Plaintiff alleges that, following the March 7, 2016 meeting, Lo
"schedule [ed] and h[eld] mandatory meetings with [him] to occur every
Tuesday and Thursday in the month of March starting on March 8,
2016," at 10:00 a.m. Compl. Iff 86, 126.
On March 15, 2016, during one such morning meeting.191 plaintiff
responded "angrily" when, despite arriving to the meeting on time, Lo
"asked him to come in [to the office] and wait while [Lo] finished a
phone call." [MSPB Record, Dkt 16-6, at 20]. On March 22, 2016,
during another morning meeting, plaintiff "shuffifedl papers on [Lo's]
desk without consent" in a manner "which appeared to be
intimidating," and "aggressively" told Lo "that [he] did not have to
attend meetings to discuss cases." Id. at 22-23. And on March 24, 2016,
during another morning meeting, plaintiff "refusfed] to discuss an
applicant's invention with [Lo]" and ultimately "left the meeting
without [Lo's] consent." Id. at 24-26.
As a result of this conduct, on May 5, 2016, plaintiff was issued a
notice of proposed removal based on the March 2016 incidents. Compl.
f 89. The notice charged plaintiff with 14 specifications of improper
conduct, detailed plaintiffs history of disciplinary actions, and
recommended termination of his employment. [MSPB Record, Dkt.
16-1, at 166-75]. On September 27, 2016, the charges were found to be
supported, and plaintiff was terminated effective September 29, 2016.
Compl. f 16.
On October 31, 2016, plaintiff appealed his termination to the MSPB,
"alleging] that his removal was due in whole or in part to retaliation,
harassment, hostile work environment, discrimination, coercion, [and]
intimidation, all on the basis of disability," in violation of multiple
federal statutes. Id. f 17. On July 7, 2017, the MSPB sustained 10 of
the 14 charges of improper conduct as well as defendants' decision to
terminate plaintiffs employment.1101 Id. f 18. In a 34-page decision, the
MSPB concluded, in short, that the USPTO "ha[d] proven that
[plaintiff! engaged in inappropriate conduct by a preponderance of the
evidence," that the USPTO "ha[d] established a nexus between
[plaintiffs] misconduct and the efficiency of the service" in that
"[plaintiffs] misconduct rendered his supervisor unable to effectively

49

interact with him and manage him," that "the [pjenalty of removal was
within the range of possible penalties" for plaintiffs conduct, that
plaintiff "ha[d] failed to establish an affirmative defense of
discrimination on the basis of disability," including failure to
accommodate, retaliation, hostile work environment, or disparate
treatment, and that plaintiff "ha[d] failed to establish an affirmative
defense of whistleblower retaliation." [MSPB Record, Dkt. 16-6, at 13,
29-30, 40],
On September 11, 2017, plaintiff petitioned the EEOC to review the
MSPB's decision only with respect to his discrimination claims. Compl.
f 21. On December 5, 2017, the EEOC concurred with the MSPB's
decision that the USPTO did not discriminate against plaintiff. Id. til
22. In a 3-page decision, the EEOC concluded, in short, that plaintiff
"did not establish that the [USPTO] discriminated against him as
alleged," including through failure to accommodate, retaliation, hostile
work environment, or disparate treatment. Id.
B. Procedural History
On February 29, 2016, before his termination, plaintiff, who has been
pro se throughout this litigation, filed the first of these consolidated
actions as a seven-count complaint against Michelle Lee, who was then
the Director of the USPTO. [Case No. 16-cv-213, Dkt. 1]. The complaint
alleged failure to accommodate, retaliation, hostile work environment,
and disability discrimination under the Rehabilitation Act and the
Civil Rights Act. Id. On April 11, 2016, plaintiff filed a nine-count
amended complaint alleging the same. [Case No. 16-cv-213, Dkt. 15],
As plaintiff's termination proceedings began, he also filed several
motions for equitable relief, including a "Motion for a Preliminary
Injunction Granting Plaintiffs Reasonable Accommodation and
Staying the Defendant's Dismissal Proceedings of the Plaintiff from
the Federal Service," each of which was denied. [Case No. 16-cv-213,
Dkt. 20, 26, 29, 35].
On March 17, 2017, the Court dismissed plaintiff's amended complaint
for lack of jurisdiction because it included claims which had not been
administratively exhausted. Specifically, plaintiff had failed to wait
180 days after amending his initial administrative complaint before
commencing the action, as required by 42 U.S.C. § 2000e-16(c). [Case
No. 16-cv-213, Dkt. 53], Plaintiff successfully appealed the dismissal)111

50

On January 12, 2018, after Ms termination and while Ms appeal to the
Fourth Circuit was pending, plaintiff filed a seven-count complaint
against Wilbur Ross, the Secretary of the United States Department of
Commerce, in the United States District Court for the District of
Columbia. [Dkt. 1]. That complaint essentially reasserted the same
failure to accommodate, retaliation, hostile work environment, and
disability discrimination claims which plaintiff had made in this court,
as well as claims that the M3PB had committed reversible error in
affirming Ms termination. Id. On October 12, 2018, that action was
transferred to this district, and on March 20,2019, it was consolidated
with Case No. 16=cv-213. [Dkt. 25, 31].
On July 5, 2019, plaintiff filed a 21-count consolidated complaint
against Michelle Lee and Wilbur Ross, alleging failure to
accommodate, retaliation, hostile work environment, and disability
discrimination under the Rehabilitation Act, the Civil Rights Act, and
the Whistleblower Protection Act, as well as reversible error by the
MSPB in affirming his termination. [Dkt. 47]. On August 29, 2019,
plaintiff filed a 21-count amended consolidated complaint alleging the
same and replacing Michelle Lee with Andre lancu, who had become
the Director of the USPTO [Dkt. 53]. Plaintiffs amended consolidated
complaint is the only operative complaint.
Some brief, additional procedural Mstory is necessary to explain
plaintiffs response to defendants* dispositive motions. Throughout this
litigation, plaintiff has repeatedly missed "standard, reasonable
deadlines," even after being panted "multiple deadline extensions."
[Dkt. 68], As relevant here, on September 12, 2019, defendants filed
their Motion to Dismiss in Part and Motion for Summary Judgment in
Part. Id. Plaintiff was provided the requisite extra time to respond
under Roseboro v. Garrison, 528 F,2d 309 (4th Cir. 1975), but twice
missed the deadline to respond, offering numerous excuses such as Ms
current enrollment in law school. Id, At one point, plaintiff conceded to
defendants that he simply "d[idn't] have anything prepared," despite
his amended consolidated complaint largely mirroring his initial
consolidated complaint, and despite defendants having previously filed
near-identical dispositive motions regarding his initial consolidated
complaint. Id. Nevertheless, the Court ultimately agreed to consider
plaintiffs belated response, [Dkt, 82],
On November 1, 2019, plaintiff filed as his response Ms Cross-Motion
for Summary Judgment, along with a document styled as a
"Memorandum of Law in Support of Plaintiffs Cross-Motion for

51

Summary Judgment and Response in Opposition to Defendants' Joint
Partial Motion to Dismiss and Partial Motion for Summary Judgment,"
[Dkt. 69], This document is split into two sections. The first section,
entitled "Plaintiffs Response to Defendants' Statement of Undisputed
Material Facts," consists of 30 numbered paragraphs indicating the
facts relied on by defendants in their dispositive motions which
plaintiff disputes. Id, The second section, entitled "Plaintiffs list of
Undisputed Facts," consists of 3 numbered paragraphs reiterating
claims regarding plaintiffs accommodation requests, followed by
handwritten citations to various attached exhibits,*121 Id,
The document submitted by plaintiff contains no legal argument, and
does not respond in any way to any of defendants' arguments in favor
of dismissal and summary judgment. Id, District courts have "no
obligation to fashion arguments for a party or to further develop a
party’s argument when it is wholly conclusory, unexplained* and
unadorned with citation legal authority-*1 Clayton v. Nationwide
Mutual Ins, Co,, 260 F, Supp, 3d 514, 521 (D.S.C. 2017). "As a general
rule, parties may not outsource their legal resource to the court or
otherwise foist upon it the necessary legwork to flesh out a legal claim
or defense because, by permitting a party to do so, the court edges into
the impermissible advocatory role of argument-creator," Id, In any
event, as a courtesy to plaintiff, in evaluating the pending motions, the
Court has looked beyond Ms defective response to defendants* motions
and has also considered Ms amended consolidated complaint, wMch
contains some relevant legal arguments.
II. DISCUSSION
A. Standard of Review of MPSB and EEOC Decisions
Because these civil actions deal with matters within the jurisdiction of
both the MSPB and the EEOC, they present a "mixed ease," In such a
case, the district court reviews the plaintiffs discrimination claims de
novo as causes of action brought under various anti-discrimination
statutes, Rana v. United States, 812 F.2d 887, 888 n.l (4th Cir, 1987);
see also Cousin v. United States, 230 F, Supp, 3d 475, 489 (E,D, Va,
2017). "Although the conclusions of the MSPB and the EEOC
regarding discrimination are not entitled to deference, de novo review
is not an invitation for the Court to sit as a kind of super-personnel
department weighing the prudence of employment decisions," Cousin,
230 F, Supp, 3d at 489-90, "Instead, as in other employment

it

52

discrimination contexts, the Court's task is to assess the employment
decision from the perspective of the employer at the time the decision
was made," Id, "Notwithstanding the de novo nature of the district
court’s review of discrimination claims, the court may consider
evidence from the MSPB’s formal record," Monk v, Potter, 723 F, Supp,
2d 860, 872 (E,D, Va, 2010),
Plaintiffs non-discrimination claims are reviewed under a more
deferential standard and are based on the administrative record before
the MSPB, Rana, 812 F.2d at 888 n.l; see also Cousin, 230 F, Supp, 3d
at 489. "[Tfhe decision of the MSPB must be affirmed unless it is found
to be: (1) arbitrary and capricious, an abuse of discretion, or otherwise
not in accordance with law; (2) obtained without procedures required
by law, rule, or regulation having been followed; or (3) unsupported by
substantial evidence," Luther, 618 F, Supp, 2d at 494-95, "For the
purposes of this analysis, it is important to note that determination of
an appropriate penalty [for improper conduct] is a matter committed
primarily to the sound discretion of the employing agency. Because of
this, reviewing courts will not disturb a penalty unless it exceeds the
range of permissible punishment or is so harsh and unconscionably
disproportionate to the offense that it amounts to an abuse of
discretion," Id,
Here, emphasizing again that the Court is construing plaintiffs
complaint "as best [it] can given the thrust of [his] [allegations]," Kerr,
824 F,3d at 72, plaintiff appears to allege, in Counts LXX, four types of
discrimination claims: failure to accommodate, disability
discrimination, and hostile work environment under the Rehabilitation
Act, and retaliation under the Rehabilitation Act, the Civil Rights Act,
and the Whistleblower Protection Act, Plaintiff also alleges, in Count
XXI, one type of non-discrimination claim: reversible error by the
MSPB and the EEOC in affirming the USPTO’s decision to terminate
him. Defendants’ Motion to Dismiss in Part is directed to Counts I-XX,
and their Motion for Summary Judgment in Part is directed to Count
XXL It is unclear to which claims plaintiffs Cross-Motion for Summary
Judgment is directed; as best the Court can tell, plaintiff appears to
seek summary judgment on Counts I, II, IV, and XXI, In reviewing
either a plaintiffs discrimination or non-discrimination claims, the
district court also reviews them under the standard applicable to the
motions before it, Cousin, 230 F, Supp, 3d at 490; see also Luther, 618
F, Supp, 2d at 490; accordingly, a further discussion of the standard of
review is included in the subsequent sections, each of which addresses
specific motions before the Court,

53

B. Defendants* Motion to Dismiss Counts I-XX
1, Standard of Review
Under Federal Rule of Civil Procedure 12(b)(6), a complaint "must be
dismissed when a plaintiff's allegations fail to state a darn upon which
relief can be panted/' Adams v, NaphCare. Inc,, 244 F, Supp, 3d 546,
548 (E.D. Va. 2017). "Therefore, in order for a , ,, complaint to survive
dismissal for failure to state a claim, the plaintiff must allege facts
sufficient to state all of the elements of [his or] her claim," Lucas v,
Henrico Ctv, Sch, Bd., 822 F Supp, 2d 589, 600 (E,D. Va, 2011),
"Plaintiffs cannot satisfy this standard with complaints containing
labels and conclusions or a formulaic recitation of the elements of a
cause of action." Id. "Instead, (plaintiffs] must allege facts sufficient to
,., stat[e] a claim that is plausible on its face." Id, "A claim has facial
plausibility when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for
the misconduct alleged," Id, In evaluating a motion to dismiss under
Rule 12(b)(6), "a plaintiffs well-pleaded allegations are taken as true
and the complaint is viewed in the light most favorable to the
plaintiff," Id,
"In cases where the plaintiff appears pro se, courts do not expect the
pro se plaintiff to frame legal issues with the clarity and precision
expected from lawyers," Suggs v, M & T Bank, 230 F, Supp, 3d 458, 461
(E.D. Va. 2017). "Accordingly, courts construe pro se complaints
liberally," Id. "This principle of construction, however, has its limits,"
Id, "Courts do not need to discern the unexpressed intent of the
plaintiff or to conjure up issues on the plaintiffs behalf," Id,; see also
Labe? v. Harvey, 438 F,3d 404, 413 n.8 (4th Gir, 2006), These limits are
particularly justified where the pro se plaintiff is a lawyer or a law
student. See, e,g,, Clowdis v, Silverman, 2019 WL 1415454, at *4 (E.D.
Va, Mar, 28, 2019); Negron-Bennett v, McCandless, 2013 WL 5552236,
at *4 (E.D, Va. Oct, 3, 2013),
2. Analysis
Each of the four types of discrimination claims which plaintiff appears
to allege will be addressed in turn.
L Failure to Accommodate Under the Rehabilitation Act
(Counts I, II, III, IV. V. X, XII)

54

Plaintiff alleges seven counts of failure to accommodate under the
Rehabilitation Act as follows. Counts I and II focus on defendants'
delay in implementing certain panted accommodations. Specifically
Count I alleges that "[o]n [September 19, 2014], [defendants] explicitly
panted [plaintiff] the reasonable accommodation of a standing desk;"
however, that accommodation was "implemented six months later on
March 19, 2015," Compl, f 99, Count II alleges that "[o]n [September
19, 2014], [defendants] explicitly panted [plaintiff] the reasonable
accommodation of a footstool;" however, that accommodation was
"implemented on or around June 2, 2015," Id, f 105, Counts III and IV
focus on defendants' denial of certain accommodation requests,
Specifically, Count III and IV respectively allege that on September 19,
2014, defendants "denied [plaintiffs] reasonable accommodation
request" to work "outside of the IFP work schedule," and that "[o]n
[February 4, 2016], [defendants] explicitly denied [plaintiff] the
reasonable accommodation of a transfer and/or a reassignment to work
under the supervision of [Chaki]," Id. DU 111-12, 117, The remaining
three counts focus on defendants' failure to abide by an accommodation
to which plaintiff claims they had agreed. Specifically, Counts V, X, and
XII respectively allege that "[o]n [September 19, 2014], [defendants]
explicitly panted [plaintiff] the reasonable accommodation!] to have
1-on-l meetings with [his] supervisor, when possible, occur after 12:00
tom,]," which defendants then "failed to abide by" in "scheduling and
holding mandatory meetings with [plaintiff]" at 10:00 am. on March
15, March 22, and March 24, 2016. Id. DU 124,126, 129, 164, 166, 182,
184,
"To establish a prim a facie claim of failure to accommodate under the
Rehabilitation Act, a plaintiff must demonstrate that (1) pm or] she
was a qualified person with a disability;*181 (2) the employer had notice
of the disability; (3) the plaintiff could perform the essential functions
of the position with a reasonable accommodation; and (4) the employer
nonetheless refused to make the accommodation," Hannah P, v. Coats,
916 F,3d 327, 337 (4th Cir, 2019), Implicit in the third element is a
requirement that "[the] proposed accommodation!] [be] reasonable,"
Reyazuddin v, Montgomery Ctv, Md,, 789 F,3d 407, 414 (4th Cir, 2015).
"Implicit in the fourth element" is a requirement "that the employer
and employee engage in an interactive process to identify a reasonable
accommodation." Haneke v, Mid-Atlantic Capital Mgmt,, 131 F, App'x
399, 400 (4th Cir, 2005). Additionally, a plaintiff "must exhaust
administrative remedies before bringing suit under the , , ,
Rehabilitation Act," Winev v, Mattis, 712 F, App’x 284, 284 (4th Cir,
2018).

55

Defendants argue that Counts I-III should be dismissed because
plaintiff failed to exhaust his administrative remedies by not timely
consulting an EEO counselor, and that Counts I and II should also be
dismissed because plaintiff failed to allege his good faith participation
in the interactive process by conceding that he did not respond to an
email from defendants regarding his standing desk and footstool.
Plaintiff concedes that he did not timely consult an EEO counselor, but
argues that the time limit should be equitably tolled based on
unspecified misconduct by defendants. He also argues that he had good
reasons for not responding to defendants* email regarding his standing
desk and footstool, Defendants have the better arguments.
The Rehabilitation Act's administrative exhaustion requirement
"includes the requirement [set out in 29 C.F.E, § 1614,105(a)(1)] that
federal employees initiate contact with an [EEO] counselor within 45
days of the date of an alleged discriminatory action," Kirkland v,
Mabus, 206 F, Supp. 3d 1073, 1080 (E,D, Va, 2016), The date of the
alleged discriminatory action is the date "when the [employee] knows,
or has reason to know, of such action," Crumps v, TCoombs & Assoes,,
LLC, 2015 WL 5601885, at *26 (ED, Va, Sept, 22, 2015); see also
Stovanov v, Mabus, 126 F. Supp, 3d 531, 549 (D. Md, 2015), "A
plaintiffs failure to timely consult an EEO counselor requires
dismissal of [his] claims for failure to exhaust administrative
remedies," Khoury v, Meserve, 85 F, App’x 960, 960 (4th Cir, 2004); see
also Kirkland, 206 F, Supp, 3d at 1080,
With regard to Counts I and II, concerning plaintiffs EEO complaint
about a delay in the implementation of a standing desk and footstool,
he concedes in his complaint that he was fully aware of the 45-day
requirement yet did not timely consult an EEO counselor;
According to the Department of Commerce’s Agency Directive No, DAO
215-10, (effective date* 04/24/2013), Section 10, 'Time Frames For
Processing Requests and Providing Reasonable Accommodations, * it
states [that] '[an] accommodation, if approved, should be provided
within 10 business days of the date the request was approved,'
Accordingly, on the 11th business day after [September 19, 2014], [i,e,,
on approximately October 3, 2014,] plaintiff should have known that
[defendants] failed to accommodate him, and would normally have 45
days from this date in which to initiate EEO contact (by contacting
OEEOD) alleging the same,
Compl, 1 6 (quoting Department of Commerce Directive DAO 215-10
(2013)) (emphasis added). It is undisputed that plaintiff first contacted

56

an EEC counselor to complain about the allegedly discriminatory delay
on April 30, 2015, more than six months after the date on which he
concedes he should have known about the delay. Id, f 12.
Even if plaintiff had not conceded in his complaint that he should have
known of the allegedly discriminatory delay as of approximately
October 3, 2014, he received actual notice four days later when, on
October 7, 2014, Shirlena Morgan emailed him regarding his standing
desk and footstool and asked him to "(p]lease give [her] a call at [his]
convenience to coordinate [his] accommodation^]," [Case No,
16-cv-213, Dkt, 11-13], Plaintiff does not dispute that he received this
email and did not respond to it, CompL % 198, This email put him on
clear notice as to when any failure to accommodate began, See
Stoyanov, 126 F, Supp, 3d at 549 (holding that the plaintiff should have
known of the allegedly discriminatory act based on an email he
received from the defendants)!141
The administrative exhaustion requirement set out in § 1614.105(a)(1)
“may be extended in limited circumstances pursuant to federal
regulation, or, in rare situations, it may otherwise be equitably tolled!'
Tharp v, Lynch, 2015 WL 8482747, at *7 (E.D, Va, Dec, 8, 2015),
Pursuant to § 1614,105(a)(2), “a plaintiff may be panted an extension
when he or she was not aware or notified [of] the time limit, did not
know that the alleged discriminatory act occurred, or was prevented
from contacting a counselor despite due diligence," Kelly v, McDonald,
2014 WL 5311367, at *3 (E,D, Va, Oct, 16, 2014), "The effect of §
1614.105(a)(1) can also be toiled equitably , ,, when the defendant has
wrongfully deceived or misled the plaintiff in order to conceal the
existence of a cause of action," Id,; see also Oaiser v. Small Bus,
Admin,, 2016 WL 8711622, at *6 (E.D, Va, Mar. 18, 2016) ("[A] federal
employee may defeat the affirmative defense of administrative
exhaustion , , , by proving that [his or] her employer engaged in
affirmative misconduct justifying equitable tolling!').
In his complaint, plaintiff appears to invoke equitable tolling!161
Specifically, the complaint alleges that "[o]n [July 23, 2014], [plaintiff]
was chilled from asserting his rights under the Rehabilitation Act"
when Wendy Garber engaged in "an alleged act of retaliation for [his]
requesting a plain-english reasonable accommodation (to not have to
report to work before 10:00 a,m. on a consistent basis)" by "subjectfing]
him to a 2-biweek proving pound ritual wherein he was told that [iff
after the first bi-week he did not match arbitrary production goals set
by [defendants], he would be discharged," CompL t 8. As a result of

57

this action, plaintiff "was afraid of being punished if he made a request
, . . that the [standing desk and footstool] be provided to him in a
timely manner," Id, This argument is meritless. As the undisputed
timeline shows, plaintiff submitted his request for the standing desk
and footstool on July 30. 2014, which was seven days after this alleged
instance of retaliation by Garber, fMSPB Record, Dkt. 16-7, at 151-58],
Accordingly, plaintiffs asserted fear is an example of the "unwarranted
inferences, unreasonable conclusions, and naked assertions devoid of
further factual enhancement" that "are not entitled to the presumption
of truth," WiMmedia Found, v, Natl, Sec, Agency, 857 F.3d 193, 208
(4th Cir, 2017),
plaintiffs also makes the inconsistent argument that he timely
consulted an EEO counselor with regard to Counts 1 and 11 because
"the failure of [defendants] to accommodate him constituted a
continuing violation of the Rehabilitation Act," Compl, % 7, Specifically
plaintiff alleges that "by initiating EEG contact prior to 45 days [after]
the last date of the continuing violation, all [counts within] the
continuing violation, from [October 3, 2014 through October 18,2015],
are to be considered timely by the Court," Id, f 8, This argument is
also unpersuasive because ”[t]he continuing-violation doctrine applies
to claims based upon a defendant's ongoing policy or pattern of
discrimination rather than discrete acts of discrimination," and "a
defendant's failure to accommodate constitutes a discrete act rather
than an ongoing omission," Hill v, Hampstead Lester Morton Court
Partners LP, 581 F, App'x 178, 181 (4th Cir, 2014), Therefore, "the
continuing violation doctrine is inapplicable," Id.; see also Ze-Ze v.
Kaiser Permanente Mid-Atlantic States Regions, Inc,, 2011 WL
320945, at *5 (E.D. Va, Jan, 28,2011) ("[Discrete acts of discrimination
cannot be saved by the continuing violation doctrine, , , , even when
they are related to acts alleged in timely filed charges,"), Accordingly,
Counts I and II will be dismissed for failure to exhaust administrative
remedies and alternatively for failure to allege good faith participation
in the interactive process,
With regard to Count III, concerning plaintiffs EEO complaint about
the denial of his request to work outside of the IFP work schedule,
plaintiffs complaint again concedes that he did not timely consult an
EEO counselor. Plaintiff alleges that the denial occurred on September
19, 2014, and that he first contacted an EEO counselor to complain
about the denial on April 30, 2015, more than seven months later,
Compl. ff 12, 112, Plaintiff attempts to justify this delay by claiming
that he reasonably interpreted defendants' response to his

58

accommodation request as "implicitly pantpng] [him] the reasonable
accommodation!] of an [un]orthodox work schedule outside the bounds
of the IFP plan," Id, f 111, Specifically plaintiff asserts that he "was
prevented by the language in the [September 19, 2014] accommodation
decision from knowing that the IJSPTO denied his reasonable
accommodation, , , , and therefore could not have made EEO contact
within 45 days of the denial to allege ... a failure to accommodate
claim," Id, 1112,
This argument is untenable. In his initial request for an
accommodation, plaintiff explicitly sought not to have to come to work
at a certain time. Although the September 19, 2014 decision addressed
that request in the "Accommodation Granted" section, it made clear
that plaintiff remained subject to the limitations of the IFP work
schedule and was not free to work whatever hours he chose, The
decision stated: "[Plaintiff] is currently on an IFP work schedule, which
should allow him sufficient flexibility in his schedule to work around
any difficulties he encounters with adhering to his typical work
schedule. Consistent with the IFP program, [plaintiff) must confer with
his supervisor to establish a work schedule that allows him to
maximize interaction, training and mentoring with his supervisor,"
[MSPB Record, Dkt. 18“?, at 151], Therefore, plaintiffs accommodation
request as alleged in his complaint, i,e., for "an [un]orthodox work
schedule outside the bounds of the IFP plan," Conipl, % 111, was
plainly denied, as confirmed by the Fourth Circuit, See Stewart v, Lee,
248 F, Supp, 3d 722, 724 (EJD, Va, 2017) (referring to this request as
"explicitly denied"), rev'd on other pounds by Stewart v, lancu, 912
F,3d 693, 697 (4th Cir, 2019) (explaining that plaintiff remained
subject to the limitations of the IFP work schedule). Other excerpts
from the USPTO’s decision also support this conclusion. For example,
in denying plaintiff's request not to have to report his upcoming work
schedule to his supervisor, the decision explained: "[Plaintiff) is
currently on an IFP schedule, which allows him to adjust Ms work
schedule to meet Ms needs, as long as he notifies his supervisor when
he deviates from his fixed work schedule. The Agency believes that this
accommodation is effective in accommodating [plaintiffs] medical
condition." [MSPB Record, Dkt, 16*7, at 152], Accordingly, Count III
will be dismissed for failure to exhaust administrative remedies,[16]
Defendants argue that Count IV should be dismissed because plaintiff
failed to allege that the accommodation he sought was reasonable,
Implicit in the third element of a failure to accommodate claim is a
requirement that "[the] proposed accommodation!] [be] reasonable,"

59

Revazuddin, 789 F,3d at 414, Count IV alleges that defendants'
February 2016 denial of plaintiffs request to be transferred to work
under the supervision of Chaki constituted a failure to accommodate;
however, "the great majority of courts ,,, have held that employers are
not required to provide an employee with a different supervisor as an
accommodation" because a different supervisor does not constitute a
reasonable accommodation "as a matter of law," Roberts v. Kaiser
Foundation Hosp,, 2015 WL 545999, at *7 (E,D, Cal, Feb, 10, 2015)
(collecting cases). Courts in the Eastern District of Virginia adhere to
this majority view. See, e,g,, Jordan v, Donahoe, 2013 WL 3893532, at
*10 (E.D, Va, July 26, 2013) ("[I]t is unreasonable as a matter of law for
an employee to [request] their being transferred away from a
particular supervisor ,,, regardless of whether or not the supervisor is
the cause of the employee's [disability],").
Plaintiff appears to argue, in his complaint, that the Job
Accommodation Network, a Department of Labor-funded "source of
free, expert, and confidential guidance on workplace accommodations
and disability employment issues," Burge v, Colvin, 2016 WL 6902118,
at *5 n,5 (E.D.N.C, Oct, 24, 2016), has suggested that transfer to a
different supervisor can constitute a reasonable accommodation in
certain circumstances. See, e,g., Comp], f 259, This argument is
meritless, The Job Accommodation Network’s guidance has been
recognized as "non-legal authority" that is "of limited persuasive
value," E,E,0,C. v. Dollar General Corp,, 252 F, Supp, 2d 277, 290 n.lO
(M.D.N.C. 2003); see also King v, Berryhill, 2018 WL 709968, at *4
(W.D,N.C. Feb, 5, 2018) ("Employers may find it useful to take
advantage of the Job Accommodation Network(,l [but] [the court]
do[es] not in any way suggest that employers are obliged to make use
of this service."). Accordingly, Count IV will be dismissed for failure to
state a claim upon which relief can be panted;
Defendants argue that Counts V, X, and XII, concerning defendants'
alleged failure in March 2016 to abide by the accommodation to have
plaintiffs one-on-one meetings with his supervisor occur, when
possible, in the afternoon, should be dismissed because plaintiff failed
to allege that he engaged m good faith participation in the interactive
process, "Plmplieit in the fourth element" of a failure to accommodate
claim is a requirement that both the employer and the employee
"engage in an interactive process to identify a reasonable
accommodation," Haneke, 131 F, App'x at 400, "Therefore, even if an
employer's duty to engage in the interactive process is triggered," any
subsequent liability "may collapse for a number of reasons," Wilson v.

60

Dollar General Corp., 717 P.3d 837, 347 (4th Cir. 2013). One such
reason is the employee's failure to participate in good faith in the
interactive process. See, e,g,, Maubach v. City of Fairfax, 2018 WL
2018552, at *6 (E.D, Va, Apr, 30, 2018); Ruddell v. Triple Canopy, Inc.,
2010 WL 4520051, at *10 (E.D, Va, Aug. 20, 2016): see also Boone v,
Bd, of Governors of tJniv, of N.C., 305 F. Supp, 3d 657, 660 (M.D.N.C.
2010) ("For the interactive process to be effective, it requires bilateral
cooperation, open communication, and good faith,").
In this vein, the Fourth Circuit has explained that "courts should look
for signs of failure to participate in good faith" in the interactive
process and that "neither party should be able to cause a breakdown"
in that process, Orabili v, Charlotte Mecklenburg Bd, of Edue,, 423 F,
App'x 314, 323 (4th Cir, 2011), For example, "[a] party that obstructs or
delays the interactive process is not acting in good faith," Id, "In
essence," when there has been a breakdown in the interactive process,
"courts should attempt to isolate the cause of the breakdown and then
assign responsibility," Id. Ultimately, "an employer cannot be held
liable , . , where it is the employee who refuses to engage in, or causes
the breakdown of, the requisite interactive process," Maubach, 2018
WL 2018552, at *5: see also Allen v. City of Raleigh, 140 F, Supp, 3d
470, 400 (E.B.N.C, 2015) ("An employer's liability for failure to provide
a reasonable accommodation ensues only where the employer bears
responsibility for the breakdown in such communications,"),
Additionally, and significantly, the interactive process is an ongoing
process that often continues even after an initial accommodation has
been panted. See, e,g„ Hannah P., 916 F,3d at 337; Neloms v.
Charleston Otv, Sch, Disk, 2019 WL 6092279, at *940 (D.S.C. June 19,
2019).[n| As a result, in this and related contexts, courts have
considered whether a plaintiff took advantage, or failed to take
advantage, of an offered or panted accommodation. See, e,g,, E.E.O.C.
v. Firestone Fibers & Textiles Co,, 515 F.3d 307,31546 (4th Cir, 2008);
Thompson v, Microsoft Oorp„ 2020 WL 877821 (W.D. Tex, Jan, 3, 2020)
("Thompson's failure to take advantage of the reasonable
accommodation offered effectively terminated the interactive process
and is fatal to Ms claim for failure to accommodate,") j181
Here, plaintiffs own allegations and concessions before the MSPB,
which he incorporated into his complaint, plainly demonstrate that he
failed to take advantage of defendants' reasonable offer to let Mm have
one-on-one meetings with Ms supervisor in the afternoon when
possible, and that he therefore bears responsibility for the "breakdown"

61

in the interactive process that ensued, CrahiH, 423 F, App’x at 323.
Specifically, several of the March 2016 incidents undisputedly involved
plaintiffs failure to attend or refusal to participate in meetings with
Lo, including multiple afternoon meetings. For example, on March 1,
2016, plaintiff "did not respond to [Lo’s] direction to contact him to
discuss cases when [he] arrived in the office." (MSPB Record, Bkt,
16*6, at 15], On March 2, 2016, plaintiff again "did not respond to [Lo's]
direction to contact him to discuss cases when [he] arrived in the
office," Id, at 15-16. On March 4, 2016, plaintiff "failed to attend" a
"mandatory meeting [with Lo] at 1:00 p,m,," stating that he "was well
within his rights ,,, to refuse to follow an unlawful order," Id, And on
March 7, 2016, during a meeting which took place "at 1:00 p,m,,"
plaintiff "refused to discuss [his] cases with [Lo], interrupted [Lo], and
recommended that [Lo] not attempt to meet with him again," Id, at
18-19. It is only after these incidents that plaintiff alleges Lo
"scheduleied] and h[eld] mandatory meetings with [him] to occur every
Tuesday and Thursday in the month of March starting on March 8,
2016," at 10:00 a.m.1191 CompL ff 86, 126,
These undisputed facts demonstrate that plaintiff caused the
breakdown in the interactive process, and plaintiff does not offer any
argument in response. The only potentially responsive argument,
again found only within plaintiffs complaint, is that Lo caused the
breakdown in the interactive process by declining to pant plaintiffs
request, during the March 7, 2016 meeting, for a transfer to work
under a different supervisor. See, e,g,, Cornpl, Hf 86-87. As previously
discussed, that request was unquestionably unreasonable as a matter
of law, and as discussed below, it was also not made in good faith.
Accordingly, Counts V, X, and XII will be dismissed for failure to state
a claim upon which relief can be panted. See Neloms, 2019 WL
6092279, at *10 ("[T]here are no sips of failure to participate in good
faith [in the interactive process] by Defendant and, because [Plaintiff]
[terminated the interactive process] while [it] was ongoing, Plaintiff
cannot establish that Defendant refused to accommodate her,").
2, Disability Discrimination Under the Rehabilitation Act
(Count VIII)
Count VIII, the only count alleging disability discrimination under the
Rehabilitation Act, alleges that plaintiff "was subjected to disparate
treatment discrimination on the basis of disability" when "Garber
refused to transfer [him] to work under [Chaki], upon request as a
reasonable accommodation," Cornpl. f 150. In support of this claim,

V

62

plaintiff also alleges that "[o]n October 30, 2015, [Garber] exhibited
invidious animus and intent to discriminate on the basis of disability
when she subjected him to disparaging statements . . . wherein
[Garber] used the phrase 'due to my disability' in a repeated manner in
the public space at work," Id, f 149, This statement purportedly
"communicated to co-workers [Garber's] belief that employees who ask
for reasonable accommodations are asking for special treatment that
they don't need or deserve," Id.
"Rehabilitation Act claims for discrimination are reviewed under the
McDonnell Douglas burden-shifting framework," Hannah R, 916 FSd
at 342, "Under that framework, [the plaintiff] has the burden of
establishing a prime fade case of discrimination," Id, "To establish this
prima fade case, [the plaintiff] must show that: (1) [he or] she is
disabled; (2) pie or] she was otherwise qualified for the position; and
(3) pie or] she suffered an adverse employment action solely on the
basis of her disability," Id, "If [the plaintiff) establishes a prima facie
case, the burden shifts to [the defendant] to provide a legitimate,
non-diseriminatory reason for its conduct," Id, "If [the defendant]
provides such a reason, [the plaintiff] bears the ultimate burden of
persuasion and must show by a preponderance of the evidence that the
proffered reason was a pretext for discrimination,"^ Id,
Defendants argue that Count VIII should be dismissed because
plaintiff has not alleged that an adverse employment action was taken
against him, Plaintiff offers no argument in response. Defendants'
argument is persuasive, "Under the discrimination prong of the
Rehabilitation Act, an adverse employment action is one that affects
the terms, conditions, or benefits of the plaintiffs employment." Simms
v, Hagel, 2015 WL 5020894, at *10 (E,T). Va, Aug, 20, 2015),
Accordingly, "[t]his category is limited to serious actions, such as a
discharge, demotion, or decrease in pay," Id, Here, the only adverse
employment action plaintiff has alleged is the failure to transfer him to
work under Chaki, and "{c]ourts have held that,, , denial of a request
to transfer to a new supervisor is not an adverse action." Chariot v,
Donley, 2014 WL 1319182, at * 14 (D.S.C. Mar, 31, 2014) (collecting
eases); see also Fergus v, Mattis, 753 F, App’x 150, 153 (4th Oir, 2018);
Melendez v. Bd, of Education for Montgomery Gty., 711 F, App'x 685,
688 (4th Cir. 2017). Accordingly, Count VHI will he dismissed for
failure to state a claim upon which relief can fee panted,
3, Hostile Work Environment Under the Rehabilitation Act
(Counts VI, XI)

63

Counts VI and XI raise duplicative claims under the Rehabilitation Act
that plaintiff was subject to a hostile work environment. Specifically,
Count VI alleges that "defendants’ conduct, via omission and
commission, described in Counts I-V," i.e., defendant’s alleged failures
to accommodate him, "in combination rise to the level of creating a
hostile work environment" because they were "unwelcome,
intimidating, hostile, and offense." CompL ff 135-36, Count XI
similarly alleges that "defendants' conduct in Counts I [sic], in view of
the [USPTO’s] previous failures to accommodate [him] with a standing
desk for six months,,,, created a hostile work environment" because it
was "intimidating, hostile, and offensive," and that defendants are
"liable for the hostile work environment because they approved fhis]
reasonable accommodations but failed to provide them, abide by them,
nor [sic] provide an alternative accommodation or a last-ditch
reassignment during this time," Id, ff 172-73,176.
"To prevail on a hostile work environment claim under the
Rehabilitation Act, [the plaintiff) must prove that [he or] she: (1) is a
quaMed individual with a disability; (2) was subject to unwelcome
harassment; (3) the harassment was based on [Ms or] her disability; (4)
the harassment was sufficiently severe or pervasive to alter a term,
condition or privilege of employment; and (5) some factual basis for
imputing liability to the employer," Edmonson v. Potter, 118 F, App’x
726, 730 (4th Cir, 2004): see also Claiborne v. Youneman, 2020 WL
863977, at *6 (E.D. Va, Feb, 21, 2020), "[The plaintiff] must
demonstrate that [the] employer’s conduct was objectively hostile, such
that a reasonable person would perceive it as such," Edmonson, 118 F,
App'x at 730, "Factors to be considered in analyzing the objective
component include the frequency and severity of the discriminatory
conduct, whether it is physically threatening or humiliating rather
than a mere offensive utterance, and whether it unreasonably
interferes with an employee’s work performance," Id,
Defendants argue that Counts VI and XI should be dismissed because
plaintiff has not alleged objectively severe or pervasive conduct,
Plaintiff offers no argument in response. Defendants* argument is
persuasive, "plaintiffs must clear a high bar in order to satisfy the
objectively severe or pervasive test," Evans v. Inti Paper Co,, 936 F,3d
183, 192 (4th Cir, 2019), For example, "rude treatment from
co-workers, callous behavior by one's superiors, or a routine difference
of opinion and personality conflict with one’s superiors are not
actionable," Id, Similarly, "offhand comments" and "isolated incidents"
are not actionable. Id.; see also Chacko v, Patuxent Inst,, 429 F.3d 505,

64

512 n.3 (4th Cir. 2005) ("Hostile work environment claims are different
in Mnd from discrete acts.")* Here, it is clear that Counts VI and XI
focus on defendants* alleged failures to accommodate plaintiff OompL
ff 5, 185=36, 172=73, 176. As previously discussed, "a defendant*®
failure to accommodate constitutes a discrete act." Hill, 581F, App'x at
181. As a result, courts have frequently found failures to accommodate,
even when accompanied by other allegedly hostile conduct, insufficient
to state a hostile work environment claim. See, e.g,, McNair v. Spencer,
2018 WL 2147515, at *9 (E.I). Va, May 3, 2018); Shetty v. Hampton
XJniv., 2014 WL 280448, at *7 (E.B, Va. Jan. 24, 2014); see also Smith v.
Straver Univ, Corp., 79 F. Supp, 3d 591, 603 (ED. Va. 2015). This case
is no different. "Harassment is considered sufficiently severe or
pervasive so as to alter the terms or conditions of the employment if a
workplace is permeated with discriminatory intimidation, ridicule, and
insult." Nnadozie v. ManorCare Health Serve., LLC, 2019 WL 6033796,
at *3 (4th Cir. Nov. 14, 2019). plaintiffs allegations simply do not rise
to that level. Accordingly, Counts VI and XI will be dismissed for
failure to state a claim upon which relief can be panted.
4, Retaliation Under the Civil Rights Act, the Rehabilitation
Act, and the Whistleblower Protection Act (Counts VII, IX. XIII.
XIV, XV. XVI, XVII. XVIII, XIX 300
Plaintiff alleges ten counts of retaliation under the Civil Rights Act,
tiie Rehabilitation Act, and the Whistleblower Protection Act, most of
which focus on his March 7, 2016 request for a transfer to work under
a different supervisor. Count VII alleges that "]o]n or around June 3,
2015, [plaintiff) was subjected to an adverse employment action after
he made initial contact with OEEOD [on April 30, 2015], that being the
[USPTO] made a finding that his wife [was] not qualified to be
considered" for a USPTO job vacancy despite having previously been
found "most qualified" for a "similar" USPTO job vacancy. CompL f
140. Count IX alleges that "]o]n March 7, 2016," Lo "sent [plaintiff] a
mandatory meeting invite and email that occurred everly] Tuesday and
Thursday" at 10:00 a.m,, and that "said meetings were in retaliation
for [Ms] requesting a reasonable accommodation from Lo earlier that
day” in the form of "a transfer to work with or under any [supervisor]
besides Lo." Id.
154-56, Counts XIII, XIV, and XV allege that on
March 7, 2016, Lo "scheduled multiple recurring meetings occurring
before noon" after plaintiff earlier that day "requested] a reasonable
accommodation*' in the form of "a transfer away from Lo." Id. ff
187=88. Counts XVI, XVII, XVIII, and XIX allege that defendants

)
J

65

"threatened, intimidated, interfered with, and coerced [plaintiffi into
forgoing [a] granted reasonable accommodation" when Lo "scheduled
recurring meetings that started at 10:00 a.m. for every Tuesday and
Thursday throughout the month of March," ff 198, Lastly, Count XX
alleges that "[o]n or around May 5,2016," plaintiff "was issued a notice
of proposed removal" in retaliation for "informing] Lo that he had filed
a complaint in federal district court" during the March 7, 2016
meeting. Id, f% 202, 204.
Two points are worth addressing at the outset. First, although Counts
XVI, XVII, XVIII, and XIX are brought under 42 U,S«C, § 12203®,
which prohibits "[interference, coercion, or intimidation," as opposed to
42 U.S.C. § 12203(a), which prohibits "[retaliation," numerous courts
have recognized that "the elements are the same" under both
provisions, Kerrigan v, Bd, of Educ. Of Carroll Ctv,, 2015 WL 4591053,
at *5 n,20 (D, Md. July 28, 2015),^ Therefore, these counts will be
analyzed in the same manner as plaintiffs other retaliation claims/^1
plaintiffs allegations themselves support this conclusion, as Counts
XVI, XVII, XVIII, and XIX allege that any interference, coercion, or
intimidation was in retaliation for his "requestfing] a reasonable
accommodation of a transfer to a previous supervisor," Compl, % 200,
Second, the disposition of plaintiffs retaliation claims under the
Whistleblower Protection Act ("WPA") is particularly straightforward,
"fTjhe WPA does not provide a remedy for retaliation for the reporting
of federal workplace discrimination," Kennebeck v, Napolitano, 2013
WL 3368960, at *1 (E.D, Va, July 3, 2013); see also Coulibaly v. Merit
Sys, Protection Bd,, 709 F. App'x 9, 10 (D.C. Gir, 2017) ("[The WPA]
coverfs] employees who make allegations about general wrongdoing at
the agency , , , (b]ut employees who specifically complain about
discrimination against them (or retaliation against them for having
filed a discrimination claim) are not covered by the [WPA] and thus fall
outside the (MSPB's] whistleblower jurisdiction,"). Indeed, "the MSPB
has repeatedly held that alleged disclosures that an agency engaged in
discrimination and created a hostile work environment" fall outside the
WPA's ambit, Kennebeck, 2013 WL 3368960, at *5 (collecting cases),
"This conclusion is sound, as employees reporting workplace
discrimination are protected from retaliation by Title VII [and other
statutes,] and to afford those employees additional protection under
the WPA would render [those] protections superfluous," Id, There is
simply "no authority" that "a complaint of discrimination or retaliation
,,, constitutes a protected disclosure under the WPA," Id,

66

Here, plaintiffs WPA claims plainly hinge on Ms complaints of
discrimination and retaliation. For example, plaintiff alleges that he
made certain disclosures about "[defendants'] failure to accommodate
his disabilities" wMeh "detailed the punishment he was facing [for
them], including increased errors in Ms work product and abusive and
demeaning supervision, harassment and hostile work environment via
lack of reasonable accommodation, and workplace ridicule by
supervisors." Compl. f 187, Plaintiff also alleges that these disclosures
"constituted a contributing factor" in the decision to terminate Ms
employment because various individuals "could have remedied" the
discrimination he faced given that "they had the power to recommend
or transfer Mm to another department or supervisor to temporarily
end the harassment, discrimination and hostile work environment on
the basis of disability," Id. if 195, "[Tjhe WPA does not provide a
remedy for retaliation for [such] reporting of federal workplace
discrimination." Kennebeck, 2013 WL 3368960, at * 1, Accordingly,
plaintiffs claims under the WPA—Counts XIII, XIV, and XV in part,
and Count XX in its entirety-will be dismissed for failure to state a
claim upon which relief can be panted.
Turning to plaintiffs remaining retaliation claims under the Civil
Rights Act and the Rehabilitation Act, "[t]o make out a prima facie
claim of retaliation [under the Civil Rights Act], a plaintiff must show;
(1) that [he or] she engaged in protected activity, (2) that the employer
took a materially adverse action against [Mm or] her[,] and (3) there is
a causal connection between the protected activity and the adverse
action," Evans v, Int'l Paper Co., 936 F.3d 183, 195 (4th Cir, 2019),
Similarly, "[i]n order to establish a prima facie claim of retaliation
[under the Rehabilitation Act], one must demonstrate that (1) plaintiff
engaged in protected activity, such as filing an EEO complaint; (2) the
employer took adverse employment action against plaintiff; and (3) a
causal connection existed between the protected activity and the
adverse action," Hoover-Lewis v. Caldera, 249 F,3d 259, 272 (4th Cir.
2001), Therefore, engagement in protected activity is a necessary
element of a retaliation claim under both the Civil Rights Act and the
Rehabilitation Act,1231
Defendants argue that Counts IX, XHI, XTV, XV, XVI, XVII, XVIII, and
XIX should be dismissed because plaintiff has failed to allege that he
engaged in protected activity, and that Count VII should be dismissed
because plaintiff has failed to allege that there was a causal
relationship between his protected activity and the adverse action,

67

Plaintiff offers no argument in response. Defendants arguments are
persuasive.
With regard to Counts IX, XIII, XIV, XV, XVI, XVII, XVIII, and XIX,
plaintiff alleges that he engaged in protected activity during his March
7, 2016 meeting with Lo when he requested to be transferred to work
under a different supervisor. ”[T]he act of requesting in good faith a
reasonable accommodation [constitutes] protected activity.” Solomon v.
Vilsak, 763 F,3d 1,15 (D.C. Cir. 2014) (collecting cases from every
circuit). Yet plaintiffs own allegations plainly demonstrate that his
request was not made in good faith. Plaintiff requested a transfer
during his March 7, 2016 meeting with Lo despite having had the same
request repeatedly denied over the previous three months, CompL f
85, The USPTO first denied his request on December 7, 2015 on the
pound that "reassignjment] to a different supervisor is not considered
to be a form of reasonable accommodation.” [MSPB Record, Dkt, 16-2,
at 34-35]« The USPTO again denied his request on February 4, 2016 on
the same pound. Compl, ff 70-72, Plaintiff obviously did not apee
with these decisions, but the law is clear that "it is unreasonable as a
matter of law for an employee to [request] their being transferred away
from a particular supervisor , , . regardless of whether or not the
supervisor is the cause of the employee’s [disability]," Jordan, 2013 WL
3893532, at *10. Accordingly, Counts IX, XIII, XIV, XV, XVI, XVII,
XVIII, and XIX will be dismissed for failure to state a claim upon
which relief can be panted.
That leaves only Count VII, which alleges that after plaintiff contacted
an 110 counselor on April 30, 2015, the USPTO failed to hire his wife
to fill a job vacancy, Compl, f 140, This claim fails because plaintiff has
not alleged a causal connection between his contact with the EEO
counselor and the decision not to hire his wife. ”[N]o causal connection
can exist between an employee's protected activity and [a
dedsion-maker’sl adverse action if the (decision-maker] was unaware
of the activity." Strothers v. City of Laurel, 895 F,3d 317, 336 (4th Cir,
2018); see also McNaught v, Va, Cmty. Coll. Sys., 933 F, Supp, 2d 804,
825 (ED, Va, 2013) ("The relevant decision-maker’s knowledge of a
plaintiffs protected activity is crucial to showing a connection to that
individual's decision to take the adverse employment action against
the plaintiff."). Here, plaintiff has not alleged that whoever decided not
to hire his wife was aware of his contact with an EEO counselor.
Accordingly, Count VII will be dismissed for failure to state a claim
upon which relief can be panted.

68

C. Plaintiffs and Defendants* Cross-Motions for Partial
Summary Judgment on Count XXI
1. Standard of Review
Under Federal Rule of Civil Procedure 56, summary judgment wis
appropriate when the court... finds that there is no genuine issue of
material fact and that the moving party is entitled to judgment as a
matter of law.” Heywood v, Va, Peninsula Regional Jail Auth,, 217 F.
Supp, 3d 896,899 (E.D, Va, 2016). Accordingly, it is appropriate to
pant summary judgment "against a party who fails to make a showing
sufficient to establish the existence of an essential element to that
party's ease, and on which that party will bear the burden of proof at
trial." Ford Motor Co. v. Nat'l Indent. Co., 972 F, Supp. 2d 850, 855
(E.D. Ya. 2013). "Where the record taken as a whole could not lead a
rational trier of fact to find for the non-moving party, disposition by
summary judgment is appropriate. In reviewing a motion for summary
judgment, a court must view the facts and any inferences drawn from
these facts in light most favorable to the nonmoving party." Id,
2, Analysis
In Count XXI, plaintiff alleges that the MSPB and the EEOC
committed reversible error by affirming defendants' decision to
terminate his employment with the USPTO. Although, as previously
discussed, plaintiffs Cross-Motion for Summary Judgment contains no
legal argument supporting summary judgment in his favor or opposing
summary judgment in defendants' favor, his complaint styles Count
XXI like an appellate brief, with separate sections purportedly
addressing asserted errors in the MSPB and EEOC proceedings.
Accordingly, the Court will address those asserted errors,1241
In the first section of Count XXI, plaintiff alleges that the MSPB
assigned "improper weight" to the evidence before it. Specifically, he
claims that more weight should have been assigned to his evidence and
less weight should have been assigned to the evidence offered by Lo
and other USPTO officials. Id. % 217, This argument is unpersuasive
because the MSPB's credibility determinations ''are virtually
unreviewable by this court on appeal," Darvishian v, Geren, 404 F,
App'x 822, 832 (4th Cfr, 2010); see also Sahadeo v, Dep't of Navy Naval
Acquisition Career Cfr., 2015 WL 13047438, at *4 (E.D, Va, Aug, 28,
2015), It is "not [this court's] function as a reviewing court to re-weigh

69

conflicting4 evidence," Rupert v, Geren, 605 F. Supp. 2d 705, 717 (D. Md,
2009),
In the second section of Count XXI, plaintiff alleges that the MSPB and
the EEOC "committed gross procedural and legal [error] when [they]
failed to And that the Agency revoked [his] panted reasonable
accommodation to have 1-on-l supervisory meetings occur in the
afternoon," Compl. f 224. This section merely reiterates many of
plaintiffs discrimination claims which, as previously discussed, will be
dismissed; therefore, there is no need to address them again.
Significantly, throughput Count XXI, plaintiff does not appear to
dispute defendants' argument that substantial evidence supports the
MSPB's conclusion that the USPTO proved by a preponderance of the
evidence that plaintiff engaged in improper conduct which warranted
termination. Indeed, plaintiff conceded before the MSPB that his
undisputed conduct "would, under normal circumstances, be deemed
misconduct worthy of adverse action," [MSPB Record, Dkt, 16-6, at 39],
To the extent that plaintiff contends the MSPB failed to address Ms
failure to accommodate claim regarding Ms morning meetings with Lo,
that argument is belied by the MSPB's decision. The MSPB concluded
that "with regards to the argument that [plaintiff] was panted a
reasonable accommodation wMeh limited meetings to after 12:00 p.m,,
the accommodation suggested that [plaintiff] and Ms supervisor
[would], when possible, schedule meetings with him after 12:00 p.m,"
[MSPB Record, Dkt, 16-6, at 39], The MSPB "[found] the
accommodation to be reasonable," and concluded that "the plain
language of the accommodation did not excuse [plaintiff] from
appearing at all meetings before 12:00 p.m." Id
In the third section of Count XXI, plaintiff alleges that the MSPB
"erred when it found that a lateral transfer to a prior, known
supervisor for PTSD disability is not a form of reasonable
accommodation," Id, 249, As previously discussed, this is incorrect. The
MSPB correctly concluded that "[plaintiffs] request for a new
supervisor was properly denied" on the pound that the MSPB "has
long held" that a transfer to a different supervisor does not constitute a
reasonable accommodation, [MSPB Record, Dkt, 16-6, at 39],
In the fourth section of Count XXI, plaintiff alleges that Ms hostile
work environment claim was "denied unlawfully due to epegious error,
abuse of discretion, [and] misapprehension of the law" because "the
agency's conduct, as described in the underlying documents, in
combination risefs] to the level of creating a hostile work

•

l

70

environment,” CompL f 262-63, As previously discussed, "[hjarassment
is considered sufficiently severe or pervasive so as to alter the terms or
conditions of the employment if a workplace is permeated with
discriminatory intimidation, ridicule, and insult," Nnadozie, 2019 WL
6033796, at *3, plaintiff's allegations simply do not rise to that level;
accordingly, the MPSB properly concluded that "(plaintiff] hafdj not
established that he was subjected to a hostile work environment"
because he "ha[d] not proven by a preponderance of the evidence that
[Lo] or any other agency official acted with hostility towards him or
harassed him on the basis of a disability," [MSPB Record, Dkt, 16-6, at
34], Lastly, in the fifth and sixth sections of Count XXI, plaintiff alleges
that the MSPB "failfed] to rule" on his disability discrimination and
retaliation claims, Compl. f f 271, 276, This argument is belied by the
MSPB's decision. The MSPB explained that "[plaintiff] ha[d] not
established that discrimination or retaliation was a motivating factor
in the decision to remove him,” either by direct or circumstantial
evidence, [MSPB Record, Dkt, 16-6, at 32-33], Specifically, the MSPB
explained that "[plaintiffs] intervening actions outweighfed] any
suspicions of discriminatory animus" given that the USFTO "was
aware of [plaintiffs] disabilities and EEO activity for a number of
years before proposing to remove him," and only proposed to remove
him after numerous instances of inappropriate conduct in March 2016,
Id, Plaintiff offers no evidence or argument that easts doubt on this
conclusion, which the Court finds particularly telling.
At bottom, there is no genuine issue of material fact regarding whether
the MSPB or the EEOC committed reversible error in affirming
defendants' decision to terminate plaintiffs employment with the
TJSPTO, As previously discussed, "the derision of the MSPB must he
affirmed unless it is found to be; (1) arbitrary and capricious, an abuse
of discretion, or otherwise not in accordance with law; (2) obtained
without procedures required by law, rule, or regulation having been
followed; or (3) unsupported by substantial evidence," Luther, 618 F.
Supp, 2d at 494-95, Additionally "determination of an appropriate
penalty is a matter committed primarily to the sound discretion of the
employing agency" such that "reviewing courts will not disturb a
penalty unless it exceeds the range of permissible punishment; or is so
harsh and unconscionably disproportionate to the offense that it
amounts to an abuse of discretion," Id, A careful review of the MSPB
record demonstrates that neither the MSPB nor the EEOC committed
reversible error.
III, CONCLUSION

71

For the reasons stated above, by an Order to be issued
Memorandum Opinion, defendants' Motion to Dismiss in
Motion for Summary Judgment in part will be panted,
Cross-Motion for Summary Judgment will be denied, and
will be entered in defendants' favor.

with this
Part and
plaintiffs
judgment

[1] "A mixed case appeal is an appeal filed with the MSPB that alleges
an appealable agency action was effected, in whole or in part, because
of discrimination," Zaehariasiewiez v. U.S. Dep't of Justice, 395 F,
Siipp, 3d 734, 738 (E,B, Va, 2019), "Normally, an employee alleging
unlawful employment actions by an agency must split Ms claims into
separate actions before different administrative entities depending on
the allegations," Id, "A mixed case appeal is, in essence, a hybrid action
allowing an employee to streamline Ms case by bundling Ms claims
into one proceeding before the MSPB." Id. Once the MSPB issues its
decision, an employee can petition the EEOC to review the decision
only with respect to the discrimination claims, Luther v, Gutierrez, 618
F, Supp, 2d 483, 489-90 (ED. Va, 2009). Once the EEOC issues its
decision, an employee can seek review of both decisions in the
appropriate federal district court. Id,
[2] Plaintiffs 127-page and 21-count Amended Consolidated
Complaint, wMch is Ms fifth complaint between these two consolidated
actions, includes many inconsistent and at times incomprehensible
allegations. Such "lengthjy] and confusing” pleading has "burdened the
Court with fishing through the [complaint] to reconcile its extensive
factual allegations with the various causes of action," a task wMch
other courts have "declined! to undertake," opting instead to dismiss
the complaint outright, Negron-Bennett v, MeOandiess, 2013 WL
5552236, at *4 (ED, Va, Oct, 3, 2013). Nevertheless, "in accordance
with the liberal construction [the Court] afford[s] a pro se
complainant," the Court will construe plaintiffs complaint "as best [it]
can given the thrust of [Ms] [allegations]." Kerr v, Marshall Univ, Bd,
of Governors, 824 F,3d 62, 72 (4th Cir. 2016),
[3] Unless otherwise indicated, docket citations are to the docket in
case number l8-cv-t369.
[4] Unless otherwise indicated, where the MSPB record is cited, it can
be considered in resolving defendants' partial motion to dismiss as well
as the parties' cross-motions for partial summary judgment. "The
Court may look to documents attached to the complaint and those
incorporated by reference without converting a Rule 12(b)(6) motion [to
dismiss] into a Rule 56 motion for summary judgment.” Healey v.

72

Abadie, 143 F. Supp. 3d 397, 401 (E.D. Va, 2015), Here, plaintiff has
incorporated the entire 2500-page MSPB record by reference into his
complaint. See CompL f 19 ("The authenticated written multi-volume
MSPB record is incorporated by reference into this complaint in its
entirety..,"),
(§] An IFF work schedule is an "Increased Flexi-time Policy" work
schedule, which allowed plaintiff to work "between 5*30 a,m, and 10:00
p.m," in order to meet the requirement that he work "at least 4 days a
week and SO hours every bi-week," (MSPB Record, Dkt, 16-1, at 248],
[6] Plaintiff filed this email in the record earlier in this litigation, and
does not dispute having received it, [Case No, 16-ev-213, Dkt, 11-13],
Therefore, it can be considered in resolving defendants' partial motion
to dismiss as well as the parties' cross-motions for partial summary
judgment, "In deciding a [Rule 12(b)(6)] motion to dismiss, a court may
consider the facts alleged on the face of the complaint as well as
matters of public record, orders, items appearing in the record of the
case, and exhibits attached to the complaint," Spirito v, Peninsula
Airport Gomm’n, 350 F, Supp, 3d 471, 4S0 (E.D, Va. 2018),
[7] The citations to the MSPB record in this paragraph are to the
MSPB's decision following plaintiff's appeal of his termination from
employment with the USPTO. In each instance that is referenced,
plaintiff "conceded" before the MSPB that the conduct took place but
asserted either that it was "avoidance behavior consistent with the
symptoms of his disability" or that an "affirmative defense" applied,
such as failure to accommodate, disability discrimination, or
retaliation, [See, e.g,, MSPB Record, Dkt, 16-6, at 15], These MSPB
findings are consistent with "the thrust" of the allegations in plaintiff's
complaint, and the Court will consider them in resolving defendants'
partial motion to dismiss as well as the parties' cross-motions for
partial summary judgment, Kerr, 824 F,8d at 72,
[8] The March 7, 2016 meeting is the only meeting about which
plaintiffs complaint contains substantial details. Before the meeting,
plaintiff requested and was panted a security guard to accompany him
to the meeting because he was concerned for his safety, using a service
typically reserved for employees walking to their cars at night. CompL
1 85. During the meeting, plaintiff requested a permanent transfer to a
different supervisor as an accommodation. Id Lo did not pant the
request. Id, Plaintiff also informed Lo that he had filed a lawsuit in
federal district court seeking a permanent transfer to a different
supervisor. Id, f 87, Plaintiff requested that all meetings with Lo stop

73

until the lawsuit was resolved because they were detrimental to his
health, Id, Lo did not pant the request. Id. Plaintiff then reportedly
became visibly upset and anpy, which made Lo feel concerned for his
own safety. Id, fif 85, 87, Plaintiff left the meeting shortly thereafter.
Id, Later that day, plaintiff was temporarily placed on paid
administrative leave. Id, f 88,
[9] The citations to the MSPB record in this paragraph are to the
MSPB's decision following plaintiffs appeal of his termination. In each
instance that is referenced* plaintiff disputed before the MSPB
whether some of the conduct took place, [See* e.g., MSPB Record* Dkt,
16-6* at 20], These MSPB findings are potentially inconsistent with
"the thrust" of the allegations in plaintiffs complaint, and despite his
incorporation by reference of the entire MSPB record* out of an
abundance of caution* the Court will consider them only in resolving
the parties1 cross-motions for partial summary judgment. Kerr* 824
F.Sd at 72.
[10] The bases for the four charges of improper conduct which the
MSPB did not sustain were not included in the above discussion of the
March 2016 incidents,
[11] The United States Court of Appeals for the Fourth Circuit
reversed* holding (!) on a question of first impression, that "the
180‘day waiting period" in § 2000e-16(c) "[is] not a jurisdictional rule,"
and (2) that "the 180-day waiting period" in § 2000c-16(c) "commences
with the filing of the initial administrative complaint, regardless of
subsequent amendments to that complaint." See generally Stewart v,
lancu* 912 F.3d 693 (4th Cir, 2019),
[12] The weakness of plaintiffs response to defendants' motions is
demonstrated by one such exhibit* an affidavit purportedly written by
Gregory Allen Royal, a former USPTO employee who appears to have
interacted with plaintiff, and who appears to have brought racial
discrimination claims against the USPTO in two civil actions before
another judge in this district, [Dkt. 69], Plaintiff asserts that Royal's
affidavit "shows that it is common [for USPTO employees] to shuffle
papers on a supervisor's desk [or] close the door to discuss private
business* and [for the USPTO] to force Black patent examiners out of
the patent office based on false allegations of workplace violence while
at the same time allowing unequal treatment of non-disabled white
employees," Id. A cursory examination of Royal's affidavit, which
largely refers to his completely unrelated civil actions in this district,
demonstrates its irrelevance to plaintiffs actions. Royal's affidavit

{

74

essentially consists of (1) allegations of widespread racial
discrimination by the USPTO, such as its "[p]erpetuation and
exploitation of racist stereotypes” as “an attack tool used to defame and
discharge=unlawfully—the African American male patent examiner,”
(2) assertions about plaintiff's character, such as plaintiff having
“never engaged in or expressed or made any statements or threats of
violence,'' and (8) baseless and potentially sanctionable accusations of
misconduct by the judge who handled Ms complaints, such as that the
judge "actfedj like the biggest child in the sandbox—an abnormally
large child—holding a plastic toy shovel and beating the smallest and
weakest child over the head with his shovel," Id, Plaintiff summarily
asserts that “as shown in thfisj affidavit!]* , , , Summary Judgment
should be entered for the plaintiff and denied to the defendants] ," Id.
lb the contrary, this kind of irrelevant evidence, including what
appears to be an effort to inject a race discrimination element into this
litigation for the first time, supports the Court’s ultimate decision to
pant defendants' motions,
[13] Defendants do not dispute that plaintiff was a qualified person
with a disability
[14] Alternatively plaintiffs undisputed failure to respond to Morgan's
email or otherwise make any effort to coordinate implementation of his
standing desk and footstool for over six months constitutes failure to
allege good faith participation in the interactive process which, as
discussed further below, is a requirement implicit in the fourth element
of a failure to accommodate claim. See, e.g,, May v. Roadway Express.
Inc., 221 F. Supp, 2d 623, 627-28 (D. Md. 2002) (holding that the
plaintiffs “undisputed and complete failure to respond to [a letter
regarding reasonable accommodations] [was] fatal to his failure to
accommodate claim" because he could not show that he "in good faith,
engaged in an interactive process")* cf, Allen v, Baltimore Cty, MD,,
2017 WL 6508930, at *4 (E.D, Va, Dec. 20, 2017) (holding that the
plaintiffs failure to respond to a letter regarding reasonable
accommodations was not fatal to his failure to accommodate claim
because the letter was "[f|ar from an olive branch," and "did not ask
[him]" to do anything). Here, plaintiffs failure to allege good faith
participation in the interactive process is underscored by his shifting
and utterly implausible explanations for why he did not respond to
Morgan's email. Plaintiff first asserted that he did not respond to the
email because it began "Good afternoon-" and "[Ms] name is Fenyang
Ajamu Stewart and not'-,'" [Case No. 16-ev*213, Dkt, 11, at 6]. Plaintiff
later asserted that he did not respond to the email because it did not

75

"commandD or instruct'' him to do anything, because it was not "clear
what [Morgan] was referring to when she used the word
'accommodation,'" and because he believed it to be "spam or junk mail
or a fishing [sic] scheme that would not require a reply," plaintiffs
Brief in Opposition, at 6, Each of these explanations is belied by the
text of the email,
[16] Plaintiff does not argue for a regulatory extension under §
1614,105(a)(2), Even if plaintiff had argued for a regulatory extension,
asserting that he was unaware of the time limit, was unaware of the
allegedly discriminatory act, or exercised due diligence in attempting
to contact a counselor, that argument would fail. As discussed further
below, plaintiff concedes that he had prior experience with the
accommodation process, and as previously discussed, plaintiff received
Morgan's email but did not make any effort to coordinate
implementation of his request for a standing desk and footstool for over
six months, CompL ff 8, 198, As a result, plaintiff would not be
entitled to an extension under § 1614,105(a)(2), See, e.g,, Kelly, 2014
WL 5311367, at *3 (holding that the plaintiff was not entitled to an
extension under § 1614.105(a)(2) because she "previously contacted an
BEG counselor about different complaints and had illustrated an
understanding of the EEG system," "was provided with notice of the
allegedly discriminatory act, and "ha[dj not identified efforts she
undertook" to timely initiate contact with an EEO counselor),
[16] Even if defendants had panted plaintiffs request to work outside
of the IFF work schedule, the record shows that he should have known
of any allegedly discriminatory revocation of or refusal to abide by that
accommodation more than 45 days before he first contacted an EEG
counselor. Specifically, the record shows that, on February 27, 2015,
more than two months before he first contacted an EEO counselor, he
attended an IFP training session at which he was advised that could
not work hours outside of the IFP work schedule, [See MSPB Record,
Dkt, 164, at 250],
[17] See also Dillard v, City of Austin, 837 F,3d 557, 562 (5th Oir, 2016);
U,S, E.E.O.C. v, UPS Supply Chain Sols., 620 FJd 1103,1111 (9th Oir,
2010),
[18] See also Alejandro v, ST Micro Electronics, Inc., 178 F, Supp, 3d
850, 863 01,0. Cal, 2016); Carol! v, England, 321 F, Supp, 2d 58, 69
(D.D.C. 2004),
[19] Indeed, plaintiffs reported refusal to participate in meetings dates
all the way back to December 2015, when such improper conduct was

76

one of the reasons for which plaintiff received a three-day suspension.
Oompl, 1! 69.
[20J Although "a plaintiff does not need to plead a prima fade case to
survive a motion to dismiss," he or she "is still required to allege facts
to satisfy the elements of [the] cause of action." Haves v, Md. Transit
Admin., 2018 WL 5809681, at *8 CD. Md. Nov. 6,2018). Accordingly, "in
reviewing motion to dismiss rulings, the Fourth Circuit continues to
speak of a prima facie [case]," which often overlaps with the elements
of the cause of action. Johnson v Lemonds, 2016 WL 447494, at *4
(M.D.N.G. Feb. 4, 2016). As relevant here, that the plaintiff suffered an
adverse employment action is both part of a prima facie ease and an
element of disability discrimination under the Rehabilitation Act. See,
e.g,, Kirkland, 206 F. Supp. 3d at 1083.
[21] See also Wilson v Gatson Gtv, N.O., 685 F. App'x 193, 201 (4th
Oir. 2017); Golden Gate Transactional Independent Serv, Inc. v.
California, 2019 WL 4222452, at *20 n.4 (CD. Cal. May 1, 2019); Baver
v Nehnan Marcus Grp., Inc., 2018 WL 2427787, at *7 (N.B, Cal. May
80, 2018); Paul v. Chicago Transit Auth., 2017 WL 1178222, at *3 (N.D.
111. Mar. 30, 2017)* Rose v. Wavne Cty. Airport Auth., 210 F. Supp. 3d
870, 885 (E.I). Mich. 2016); Berlotti v. Prunty, 2010 WL 3743866, at *3
(S.D.W. Va. Sept. 21, 2010); Luna v. Walgreen Co., 575 F. Supp. 2d
1326, 1342 (S.D. Fla. 2008).
[22] Additionally, although plaintiff references 42 U.S.G, § 12203,
which is part of the Americans with Disabilities Act, "[t]he
Rehabilitation Act incorporates [§ 12203] by reference." Hockaday v.
Brownlee, 370 F. Supp. 3d 416, 424 (E.D. Va. 2004); see also S,B. v. Bd.
of Educ. of Harford Cty., 819 F.3d 69, 78 n.6 (4th Cir. 2016).
[23] As relevant here, that the plaintiff engaged in protected activity
and that there was a causal connection between that activity and the
alleged adverse action are both part of a prima facie case and an
element of retaliation under the Civil Rights Act and the
Rehabilitation Act. See, e.g., Jones v. Bd, of Educ. of Putnam Cty,, 2020
WL 118600, at *5 (S.D.W. Va, Jan. 9, 2020); Jones v, HCA, 16 F, Supp.
3d 622, 634-35 (E.D, Va, 2014); see also supra, note 20.
[24] Count XXI makes up 40 pages of plaintiffs complaint. Within
Count XXI, plaintiff at times makes one- or two-sentence references to
additional errors in the MSPB and EEOC proceedings that are entirely
devoid of context or explanation. See, e.g., CompL % 221 ("Also, because
[plaintiff] was charged with workplace violence, in the specifications,
the [MSPB] was required as a matter of law to conduct a Metz analysis

1

1.

77

but failed to do so, Metz v, Dep't of the Treasury. 780 F,2d 1001, 1004
(Fed, Cir, 1986)."). Although "courts do not expect the pro se plaintiff to
frame legal issues with the clarity and precision expected from
lawyers, , , , [tjhis principle has its limits," Suggs, 230 F, Supp, 3d at
461, Additionally, "parties may not outsource their legal resource to the
court or otherwise foist upon it the necessary legwork to flesh out a
legal claim or defense because, by permitting a party to do so, the court
edges into the impermissible advocatory role of argument-creator,"
Clayton, 260 F, Supp. 3d at 521, Because plaintiff has failed to
"sufficiently develop" any of these cursory arguments, none of which
appears to be meritorious, either in a proper responsive pleading or in
his complaint, they will not be individually addressed. Id,

78

APPENDIX C
FILED: March 22, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1514
(1:18-cv-01369-LMB-TCB)
(1:16-CV-00213-LMB-JFA)
FENYANG STEWART
Plaintiff - Appellant
v.
WILBUR L. ROSS, JR., Hon., in his official capacity as Secretary, U.S.
Department of Commerce; ANDREI IANCU, in his official capacity as
Director,
United States Patent & Trademark Office
Defendants - Appellees
ORDER

The court denies the petition for rehearing and rehearing en banc. No
judge requested a poll under Fed. R. App. P. 35 on the petition for
rehearing en banc.
Entered at the direction of the panel: Chief Judge Gregory, Judge
Motz, and Judge Wynn.
For the Court
/s/ Patricia S. Connor. Clerk

79

Appendix D

42 U.S. Cnde 81.220ft.Pmlil1ritt<m against retaliation and
coercion
(a)Retaliation
No person shall discriminate against any individual because such
individual has opposed any act or practice made unlawful by this
chapter or because such individual made a charge, testified, assisted,
or participated in any manner in an investigation, proceeding, or
hearing under this chapter,
(b)Intorference, coercion, or intimidation
It shall be unlawful to coerce, intimidate, threaten, or interfere with
any individual in the exercise or enjoyment of, or on account of his or
her havi ng exercised or enjoyed, or on account of his or her having
aided or encouraged any other individual in the exercise or enjoyment
of, any right panted or protected by this chapter,
(c)Bemedies and procedures
The remedies and procedures available under sections 12117,12183,
and 12188 of this title shall be available to aggrieved persons for
violations of subsections (a) and (b), with respect to subchapter I,
subehapter II and subchapter in, respectively.
Constitutional Provisions Involved
Amendment V of the U.S. Constitution provides as follows:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just
compensation.enforce contracts, to sue, be parties, give evidence, and
to the full and equal benefit of all laws and proceedings for the security
of persons and property as is enjoyed by white citizens, and shall be

80

subject to like punishment, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other..
5 U.S-C. § 554 states in part:
(b)
This section applies, according to the provisions thereof, in every
case of adjudication required by statute to be determined on the record
after opportunity for an agency hearing, except to the extent that there
is involved—
(2)
a matter subject to a subsequent trial of the law and the facts de
novo in a court5 U.S.C. § 557 states in part:
(d)
This section applies, according to the provisions thereof, when a
hearing is required to be conducted in accordance with section 556 of
this title.
(e)
When the agency did not preside at the reception of the
evidence, the presiding employee or, in cases not subject to section
554(d) of this title, an employee qualified to preside at hearings
pursuant to section 556 of this title, shall initially decide the case
unless the agency requires, either in specific cases or by general rule,
the entire record to be certified to it for decision. When the presiding
employee makes an initial decision, that decision then becomes the
decision of the agency without further proceedings unless there is an
appeal to, or review on motion of, the agency within time provided by
rule. On appeal from or review of the initial decision, the agency has
all the powers which it would have in making the initial decision
except as it may limit the issues on notice or by rule. When the agency
makes the decision without having presided at the reception of the
evidence, the presiding employee or an employee qualified to preside at
hearings pursuant to section 556 of this title shall first recommend a
decision, except that in rule making or determining applications for
initial licenses—
(3)
instead thereof the agency may issue a tentative decision or one
of its responsible employees may recommend a decision; or
(4)
this procedure may be omitted in a case in which the agency
finds on the record that due and timely execution of its functions
imperatively and unavoidably so requires.

>

V

81

(c) Before a recommended, initial, or tentative decision, or a decision on
agency review of the decision of subordinate employees, the parties are
entitled to a reasonable opportunity to submit for the consideration of
the employees participating in the decisions—
proposed findings and conclusions; or
(4)
exceptions to the decisions or recommended decisions of
(5)
subordinate employees or to tentative agency decisions; and
supporting reasons for the exceptions or proposed findings or
(6)
conclusions.
The record shall show the ruling on each finding, conclusion, or
exception presented. All decisions, including initial, recommended, and
tentative decisions, are a part of the record and shall include a
statement of—
(C) findings and conclusions, and the reasons or basis therefor, on
all the material issues of fact, law, or discretion presented on the
record; and
(D) the appropriate rule, order, sanction, relief, or denial thereof.
(emphasis added).
The Rehabilitation Act, states in part, at 29 U.S.C. § 791 (f):
Standards used in determining violation of section
The standards used to determine whether this section has been
violated in a complaint alleging nonaffirmative action employment
discrimination under this section shall be the standards applied under
title I of the Americans with Disabilities Act of 1990 (42 U.S.C. 12111
et seq.) and the provisions of sections 501 through 504, and 510,[1] of
the Americans with Disabilities Act of 1990 (42 U.S.C. 12201—12204
and 12210), as such sections relate to employment.

A

